No.

In the Supreme Court of the United States

Yarlin Garcia,
Petitioner
v.
United States of America,
Respondent

On Petition for Writ of Certiorari to the United States Court of Appeals for
the First Circuit

Certificate of Service
I, William L. Welch, III, counsel for petitioner, and a member of the Bar of
this Court, certify that on this 13th day of August 2021 the required number of
copies of the Motion to Proceed in Forma Pauperis and Petition for Certiorari were
mailed to Mr. Noah Falk, Mr. Benjamin M. Block, and Ms. Julia M. Lipez, Office of
the United States Attorney, 100 Middle Street, East Tower, 6th Floor, Portland,
Maine 04101-4100, and to the Solicitor General of the United States, Room 5614,
Department of Justice, 950 Pennsylvania Avenue, N.W., Washington, DC 205300001.

/s/ William

L. Welch, III

William L. Welch, III
5305 Village Center Drive, Suite 142
Columbia, Maryland 21044
wlw@wwelchattorney.com
Telephone: (410) 615-7186
Facsimile: (410) 630-7760
Counsel for Yarlin Garcia
(Appointed pursuant to the Criminal
Justice Act)

